1N THE SUPREME COURT OF THE UNITED STATES

MCDONALD, CEDRIC L.
Petitioner

vs.

No: 19-0557

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
November 01, 2019
cc:

See Attached List

STEVEN J. DRAY
DEFENSE APPELLATE DIVISION
U.S. ARMY LEGAL SERVICES
AGENCY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060
DAVID A. GOLDENBERG
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
JEFFREY T. GREEN
NORTHWESTERN SUPREME COURT
PRACTICUM
375 EAST CHICAGO AVE.
CHICAGO, IL 60611
TIMOTHY GRAMMEL
DEPART OF THE ARMY
U.S. ARMY LEGAL SERVICE AGENCY
TRAIAL DEFESE SERVICE
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5 546

